LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

April 30, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

MIRIAM LOWELL AND SETH HEALEY V. VERMONT DEPARTMENT FOR CHILDREN
AND FAMILIES, ET AL.

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Motion to File In
Forma Pauperis and Petition for a Writ of Certiorari referenced above contains 5,664
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 30th day of April 2021.

